DOE/IG-0524




         AUDIT
        REPORT




                                  ALBUQUERQUE OPERATIONS
                                OFFICE’S GRANT ADMINISTRATION




                                            SEPTEMBER 2001




   U.S. DEPARTMENT OF ENERGY
  OFFICE OF INSPECTOR GENERAL
    OFFICE OF AUDIT SERVICES
                    U. S. DEPARTMENT OF ENERGY
                          Washington, DC 20585

                             September 18, 2001


MEMORANDUM FOR THE SECRETARY

FROM:                    Gregory H. Friedman (Signed)
                         Inspector General

SUBJECT:                 INFORMATION: Audit Report on "Albuquerque Operations Office's
                         Grant Administration"

BACKGROUND

As of September 30, 1999, the Albuquerque Operations Office (Albuquerque) administered
grants with a total value of $509 million. These grants funded numerous activities such as
research and development, education, and state and local projects. Albuquerque personnel were
responsible for (1) ensuring that the activities were in accordance with the grant terms, and (2)
verifying the proper expenditure of funds. To a large extent, these administrative responsibilities
are accomplished through a review and analysis of various technical and financial reports
provided by the grant recipients. A Federal Assistance Reporting Checklist is included as part of
each grant. This checklist identifies the reporting requirements and frequency of required
reports for each project. For example, "Topical" reports present the technical results of work
performed on a specific phase of a project and "Final Technical" reports present a technical
accounting on the total work performed on a project. There are also several financial reports on
budgets, expense rates, and planned milestones, including a spending plan. The review by the
Department of these reports, referred to as "deliverables," is an important and necessary part of
the grant administration process.

The objective of the audit was to determine whether Albuquerque was receiving the deliverables
required in its grant instruments. Problems in obtaining deliverables relating to grants and
cooperative agreements have been highlighted in prior Office of Inspector General reports.
Currently, we are conducting a series of audits dealing with this subject.

RESULTS OF AUDIT

The audit disclosed that Albuquerque was not receiving many of the deliverables specified in its
grants. As of May 2001, Albuquerque had not received final deliverables for 11 of the 28
completed grants, which were included in our review. In one case, a $3.1 million grant required
a final deliverable to document the results of research performed on engine combustion.
However, the final deliverable had not been received 30 months after the date specified in the
grant instrument. The final deliverable was a report that would have described all the technical
work accomplished on the project.

In performing the audit, we found that Albuquerque had no formal procedures to identify when
deliverables were due, thus impacting its ability to initiate follow-up actions. As a consequence,
the results of research and development funded through the Albuquerque grants were not readily
available, and Albuquerque could not fully exercise its fiduciary responsibility over the
expenditure of public funds.

To strengthen its grant administration program, we recommended that Albuquerque develop and
                                                   -2-


implement a process to identify when deliverables are due, initiate follow-up action when required
documents are not received, and institute remedies allowed in the Department of Energy Acquisition and
Assistance Regulations Financial Assistance Letter 98-02 to obtain deliverables specified in its grant
instruments.

MANAGEMENT REACTION

Management concurred with the finding and recommendations in the report and provided a corrective
action plan.

Attachment

cc: Deputy Secretary
    Under Secretary for Energy, Science and Environment
    Administrator, National Nuclear Security Administration
ALBUQUERQUE OPERATIONS OFFICE'S GRANT
ADMINISTRATION

TABLE OF
CONTENTS


               Overview

               Introduction and Objective ............................................... 1


               Conclusions and Observations ........................................ 1


               Deliverables Not Received


               Details of Finding ............................................................ 2


               Recommendations and Comments ................................. 4


               Appendices


               Scope and Methodology.................................................. 6


               Past Audits ...................................................................... 8
Overview
INTRODUCTION      Grants are issued when limited Federal collaboration and participation
AND OBJECTIVE     is anticipated and when a public need is served. As of September 30,
                  1999, the Albuquerque Operations Office (Albuquerque) administered
                  75 grants with a total value of $509 million. These grants funded
                  activities such as scientific research and development, education, and
                  state and local projects. Albuquerque personnel are responsible for
                  ensuring that activities are in accordance with the grant terms and
                  verifying the proper expenditure of funds. These responsibilities are
                  accomplished through a review and analysis of various technical and
                  financial reports called deliverables.

                  The objective of our audit was to determine whether Albuquerque was
                  receiving the deliverables specified in its grants. Similar audits
                  addressing the receipt and dissemination of deliverables are currently
                  being conducted at the Department of Energy’s (DOE) Oakland and
                  Richland Operations Offices.

CONCLUSIONS AND   Albuquerque was not receiving the deliverables specified in its grants.
OBSERVATIONS      Neither final nor interim deliverables were received from many of its
                  grants awarded for research and development, education, and state and
                  local activities. This occurred because Albuquerque did not have
                  formal procedures in place to identify deliverables that were due. This
                  lack of procedures impacted Albuquerque's ability to initiate follow-up
                  actions when deliverables were overdue. By not having the procedures
                  to monitor a grantee's performance and financial status, Albuquerque
                  cannot fully exercise its fiduciary responsibility over the expenditure of
                  public funds.

                  The audit identified a material internal control weakness that
                  management should consider when preparing its yearend assurance
                  memorandum on internal controls.




                                                 _____(Signed)__________
                                                 Office of Inspector General




Page 1                                                 Introduction and Objective/
                                                       Conclusions and Observations
Deliverables Not Received
Numerous Final And    As of May 2001, Albuquerque had not received final deliverables for
Interim Reports Not   11 of 28 grants reviewed. One grant funded at $3.1 million, for
Received              example, required a final deliverable to document the results of research
                      performed on engine combustion. This deliverable was supposed to be
                      sent within 90 days of the project end date to Albuquerque and DOE's
                      Office of Scientific and Technical Information (OSTI) in order to make
                      the results available to the public. The final deliverable was due by
                      November 1998. As of May 2001, however, the final deliverable had
                      not been received either by Albuquerque or OSTI and was 30 months
                      late.

                      Another grant, funded at $316,000, specified the submission of a final
                      deliverable. This deliverable was to demonstrate how the curriculum
                      on environmental restoration and management was strengthened at
                      educational institutions. The final deliverable was due by January
                      1995. As of May 2001, the final deliverable had not been received by
                      Albuquerque and was 76 months late.

                      In addition to not receiving final deliverables, Albuquerque did not
                      receive numerous interim deliverables specified in 25 of the 28 grants
                      reviewed. An educational grant funded at $2 million, for instance,
                      required 51 interim deliverables. These deliverables were to provide
                      information about an advanced manufacturing degree program initiated
                      at a university. These interim deliverables also included reporting on
                      the status of funds. However, Albuquerque received only 9 of the 51
                      interim deliverables required. Albuquerque also did not receive interim
                      deliverables from another grant, funded at $850,000, awarded to a local
                      government entity. This grant required 15 interim deliverables
                      documenting the status of funds. As of May 2001, however, no interim
                      deliverables had been received.

Administrative        With minimal Federal involvement, it is essential that a grant's
Responsibilities      performance and financial status be monitored and accounted for
                      through the receipt of deliverables--an important and necessary part of
                      the grant process. The grant instrument is the binding document
                      identifying the deliverables required of the grantee as determined by the
                      Contracting Officer (CO) and the Contracting Officer Technical
                      Representative (COTR). The grantee agrees to the reporting
                      requirements when the grant is awarded. Grantees are required to send
                      the deliverables to the CO and COTR. For research and development
                      grants, grantees are also required to send the final deliverables to OSTI
                      for dissemination of the results to the public.




Page 2                                                                   Details of Finding
                   DOE Acquisition and Assistance Regulations Financial Assistance
                   Letter (FAL) 98-02 requires the CO and the COTR to keep each other
                   informed as to the receipt of deliverables. When a deliverable is not
                   received within the specified time frame, the first step is to initiate
                   immediate follow-up action with the grantee. If the deliverable is still
                   not received, the CO should issue a notification letter detailing the
                   corrective actions the grantee must take and possible enforcement
                   actions. The possible enforcement actions can include converting from
                   an advance payment to reimbursement payment, temporarily
                   withholding payments, disallowing costs, terminating the grant,
                   withholding future grant awards for the project or program, and taking
                   other legal remedies. If these follow-up actions fail, a second
                   notification letter is issued by the CO advising the grantee of the
                   enforcement actions taken. At a minimum, FAL 98-02 requires the CO
                   to withhold payments to the grantee pending correction of the
                   deficiency.

Deliverables Not   Albuquerque did not have formal procedures to identify when
Tracked            deliverables were due. Such procedures were needed because
                   Albuquerque, as of September 30, 1999, was administering 75 grants,
                   each with its own deliverable requirements and unique submittal times.
                   Although Albuquerque had not instituted formal procedures, at least
                   one COTR demonstrated that deliverables could be tracked. In 1995,
                   this COTR used a spreadsheet to annotate the receipt of deliverables.
                   After tracking several interim deliverables, the effort was discontinued.
                   This was the only attempt found at tracking grant deliverables.

                   The lack of formal procedures to identify the receipt of deliverables
                   impacted Albuquerque's ability to initiate follow-up actions when
                   deliverables were not received. Because Albuquerque did not know
                   when deliverables were due, notification letters or similar documents
                   were not issued to 7 of the 11 grantees that failed to submit the required
                   final deliverables. For four grants where Albuquerque knew that a
                   deliverable was not received, officials issued letters or similar
                   documents; however, most did not stipulate what actions would be
                   taken if the deliverables were not received within a specified period.
                   For example in August 2000, Albuquerque simply requested a final
                   report from one grantee. The request did not provide a timeframe and
                   did not indicate what actions would be taken if the deliverable was not
                   received. In fact, when the deliverable was not received by October
                   2000, Albuquerque waived the requirement. Although most grantees
                   failed to submit their required deliverables, Albuquerque never
                   withheld payments pending correction of the deficiencies.



Page 3                                                                 Details of Finding
                  Further, we assessed whether there were performance measures
                  established under The Government Performance and Results Act of
                  1993 related to the receipt and follow-up of interim and final
                  deliverables. We determined that Albuquerque did not have any
                  performance measures addressing these issues.

Cannot Identify   Without deliverables Albuquerque cannot perform its fiduciary duty to
Grant Progress    ensure that taxpayer funds are spent as intended. In addition,
                  Albuquerque cannot document whether a grant is meeting its goals and
                  objectives if it does not monitor the grantee's performance and financial
                  status. The lack of reporting may serve as a red flag and indicate the
                  need for assistance or actions to protect DOE's and taxpayers' interest.
                  Without the final reports on research and development grants,
                  Albuquerque cannot document or make public the results on grants
                  worth $4.9 million. Without final reports on education or state and
                  local grants, DOE is not in a position to assure that expenditures led to
                  desirable results.

RECOMMENDATIONS   We recommend that the Manager, Albuquerque Operations Office:

                  1. Develop and implement formal procedures to identify when
                     deliverables are due;

                  2. Initiate follow-up action when deliverables are not received;

                  3. Issue notification letters if the initial follow-up action fails;

                  4. Carry out the remedies allowed in FAL 98-02; and,

                  5. Develop performance measures related to the receipt and follow-up
                     of interim and final deliverables.

MANAGEMENT        Management concurred with the finding and all recommendations and
COMMENTS          provided a corrective action plan.

                  Specifically, Albuquerque will form a Process Improvement Team
                  staffed by personnel from the Contracts and Procurement Division and
                  the Technology Development Division. This Team will develop a
                  system to track deliverables under financial assistance instruments. The
                  Team will concurrently assess the roles and responsibilities of the CO
                  and the COTR and will formally assign responsibility for tracking
                  deliverables accordingly. Management envisions the assigned
                  responsibilities will be as defined in Draft FAL 2001-02, the planned
                  successor to FAL 98-02.


Page 4                                              Recommendations and Comments
                   Management also stated that the Contracts and Procurement Division
                   had conducted an internal assessment at the same time the Office of
                   Inspector General was conducting its audit. The Division's assessment
                   concluded that Albuquerque had been remiss in the administration of its
                   grants relative to the required deliverables and identified the resources
                   available to perform the workload as one of the root causes. Thus, the
                   Team will also need to address the issue of human resources in both of
                   its Divisions.

                   Finally, Albuquerque agreed to establish performance measures
                   consistent with the requirements of The Government Performance and
                   Results Act of 1993.

AUDITOR COMMENTS   Management's proposed actions are responsive to the recommendations.




Page 5                                            Recommendations and Comments
Appendix 1
SCOPE         The audit was performed between November 2000 and June 2001 at
              Albuquerque. For the grants selected, we reviewed the grant files
              administered by Albuquerque's Contracts and Procurement Division.
              We attempted to obtain the files that the Division could not locate from
              other sources, such as the COTR or grantee. However, we were still
              unable to obtain the required documentation for two grants.

              Although Albuquerque administered a total of 75 grants as of
              September 30, 1999, we selected our sample from a population of
              49 grants valued at $176 million that were to have ended prior to
              October 1, 2000, as reported in the DOE's Procurement and Assistance
              Database System. The population allowed us to select grants worth
              $300,000 or more that had both interim and final deliverables. The
              population breaks out as follows: Education grants (19 grants valued at
              $26 million), Research and Development grants (15 grants valued at
              $13 million), and State/Local Government grants (15 grants valued at
              $136 million).

METHODOLOGY   To accomplish our audit objective, we:

                 •   Reviewed applicable Federal and DOE regulations;

                 •   Interviewed contracting officials, project officers, and grantees;

                 •   Reviewed prior audit reports related to the audit objective;

                 •   Reviewed grant files for the receipt of interim and final
                     deliverables;

                 •   Reviewed The Government Performance and Results Act of
                     1993 and determined whether performance measures were
                     established; and,

                 •   Selected a sample of 28 grants, with DOE funding of $62
                     million. This included the two grant files Albuquerque was
                     unable to locate. We only selected grants with a total project
                     cost, according to the Procurement and Assistance Database
                     System, equal to or greater than $300,000. They are broken out
                     as follows: Education grants (6 grants valued at $12 million),
                     Research and Development grants (11 grants valued at $10
                     million), and State/Local Government grants (11 grants valued
                     at $40 million).




Page 6                                                    Scope and Methodology
         The audit was conducted in accordance with generally accepted
         Government auditing standards for performance audits and included
         tests of internal controls and compliance with laws and regulations to
         the extent necessary to satisfy the objective of the audit. Accordingly,
         we assessed internal controls and performance measures established
         under The Government Performance and Results Act of 1993.
         Albuquerque did not have performance measures related to the receipt
         and follow-up of interim or final deliverables. Because our review was
         limited, it would not necessarily have disclosed all internal control
         deficiencies that may have existed at the time of our audit. We relied
         only on computer processed data from the Procurement and Assistance
         Database System for selecting our sample. Therefore, we did not assess
         the reliability of computer processed data since it did not impact our
         audit work to answer our objective.

         Management waived the exit conference on August 21, 2001.




Page 7                                              Scope and Methodology
Appendix 2
                    PAST AUDITS RELATING TO GRANT ADMINISTRATION


•   Audit of Peer-Reviewed Scientific Literature Generated at the Department’s Light Sources, (DOE/IG-
    0520, August 2001). Only 44 percent of abstracts generated from work performed at the
    Department’s light sources in Fiscal Year 2000 were available for public dissemination through the
    Office of Science and Technical Information (OSTI). This occurred because OSTI did not establish
    procedures to ensure that peer-reviewed journal literature for research performed at the light sources
    was collected in OSTI’s PubSCIENCE database. As a result, scientific advancement was not fully
    promoted, and research and development efforts are more likely to be duplicated.

•   Audit of Departmental Receipt of Final Deliverables for Grant Awards, (DOE/IG-0415, December
    1997). Over 700 grants awarded by 5 procurement offices reviewed did not provide final technical
    and financial reports. The report also found that officials were waiving reporting requirements in
    order to facilitate the closeout process. Without the final deliverables, the report concluded DOE
    could not demonstrate that the public benefit specified in the grant instrument was achieved.

•   Audit of the Department of Energy's Scientific and Technical Information Process, (DOE/IG-0407,
    June 1997). DOE and its contractors had not implemented systems to identify, collect, and
    disseminate scientific and technical information; and OSTI was not receiving all scientific and
    technical information generated by the contractors. At the outset of research and development
    projects, DOE and its management and operating contractors did not identify the deliverables.
    Without a process to identify deliverables, DOE could not adequately track or monitor the overall
    success of its research and development program or ensure broad-based dissemination of scientific
    and technical information.

•   Audit of Selected Government-Funded Grants and Contracts at Princeton University, (ER-B-98-04,
    November 1997). The audit questioned the amount of labor effort and expenditures incurred on 20
    Princeton agreements. The amount of hours claimed by the principal investigator and Princeton
    employees reported to have worked at the commercial business raised doubt about the amount of
    effort that was actually devoted to agreements at Princeton. This condition was exacerbated by
    Princeton's inadequate documentation of labor effort. Because a principal investigator played a major
    role in both the Princeton agreements and a commercial concern that performed similar work, it
    obscured whether the labor effort and expenditures were incurred solely for the benefit of Princeton's
    agreements.

•   Audit of Economic Development Grants and A Cooperative Agreement with East Tennessee Not-For-
    Profit Organizations, (ER-B-97-01, October 1996). Significant amounts awarded to the East
    Tennessee Economic Council (Council) were not being used for their intended purposes. This
    occurred because DOE considered certain types of costs to be allowable even though the costs were
    outside the grants' approved scopes of work. Also, DOE advanced the Council about $1.4 million
    more than it needed to establish a revolving loan fund. DOE also allowed the Council to hold about
    $148,000 in interest earned because the officials responsible for awarding and administering the
    grants were not familiar with Federal rules on cash advances and interest earned on them.


Page 8                                                                                     Past Audits
                                                                     Report No.: DOE/IG-0524


                              CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers'
requirements, and, therefore, ask that you consider sharing your thoughts with us. On the back
of this form, you may suggest improvements to enhance the effectiveness of future reports.
Please include answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the audit would have been helpful to the reader in understanding this
   report?

2. What additional information related to findings and recommendations could have been
   included in this report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall
   message more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues
   discussed in this report which would have been helpful?

Please include your name and telephone number so that we may contact you should we have
any questions about your comments.

Name____________________________________Date________________________________

Telephone________________________________Organization__________________________

When you have completed this form, you may fax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

               Office of Inspector General (IG-1)
               U.S. Department of Energy
               Washington, D.C. 20585
               ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Wilma Slaughter at (202) 586-1924.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                             following address:


                   U.S. Department of Energy Office of Inspector General Home Page
                                        http://www.ig.doe.gov


       Your comments would be appreciated and can be provided on the Customer Response Form
                                      attached to the report.
